No. 19-389

 

 

IN THE

Supreme Court of the United States

JAY ANTHONY DOBYNS,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,963 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 21, 2020.

 

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.
